audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the City Of Nashua, New Hampshire Police Department
GR-70-99-007
July 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS), to the City of Nashua, New Hampshire Police Department (Nashua).  Nashua was awarded a total of $812,016 in COPS grants to hire ten new full-time sworn police officers under the Universal Hiring Program (UHP) and to redeploy three full-time-equivalent (FTE) sworn police officers to community policing under the Making Officer Redeployment Effective (MORE) Program.

Nashua violated some grant conditions.

Under UHP and MORE 95, Nashua claimed reimbursement for healthcare costs at rates greater than actual costs.  Nashua charged $14,788 above the actual health benefit costs under the UHP grant.  Nashua charged $13,188 above the actual health benefit costs under the MORE grant.  As a result, we question a total of $27,976 under the UHP and MORE grants.

	Nashua did not always submit timely and accurate monitoring reports.

These items are discussed in the Findings and Recommendations section of the report.  The scope and methodology we used to perform the audit appear in Appendix II.